A Review of the September 2005 Shooting Incident Involving
the Federal Bureau of Investigation and Filiberto Ojeda Ríos

August 2006
Office of the Inspector General


Glenn A. Fine, Inspector General of the U.S. Department of Justice, today issued a 171-page
report examining the September 2005 shooting incident involving the Federal Bureau of
Investigation (FBI) and Filiberto Ojeda Ríos. Ojeda was one of the founders and leaders of the
Ejército Popular Boricua, also known as the “Macheteros” (Cane-Cutters), an organization that
claimed credit for various violent crimes during the late 1970s and 1980s in pursuit of
independence for Puerto Rico. Ojeda had been a fugitive for 15 years and was wanted in
connection with the 1983 robbery of a Wells Fargo facility in West Hartford, Connecticut.

In early September 2005, the San Juan FBI determined that Ojeda and his wife were likely
living in a house located on a rural hillside in Hormigueros, on the west side of Puerto Rico. On
September 23, 2005, at 4:28 p.m., a team of FBI agents approached the residence to arrest
Ojeda. The operation resulted in a brief but intense exchange of gunfire between Ojeda and
the FBI. Ojeda fired 19 rounds, 8 of which struck FBI agents. One agent was wounded
seriously in the abdomen. The FBI agents fired approximately 104 rounds during the initial
gunfight, none of which struck Ojeda.

The gunfight was followed by a standoff during which Ojeda’s wife came out of the house and
surrendered, and FBI agents engaged in a dialog with Ojeda in an unsuccessful effort to
persuade him to do the same. At 6:08 p.m., an FBI agent who was about 20 feet away saw
Ojeda through a kitchen window with a gun in his hand. The agent fired three shots, one of
which struck Ojeda. Several agents heard Ojeda cry out and fall.

The FBI did not enter the house until shortly after noon the next day, at which time the agents
found Ojeda dead on the floor from a single bullet wound that had punctured his lung.

At the request of the FBI Director, the Office of the Inspector General (OIG) conducted this
review of the circumstances surrounding the FBI’s arrest operation and the death of Ojeda.
The OIG sought to determine whether the FBI agents who discharged their weapons during the
Ojeda operation complied with the Department of Justice Deadly Force Policy. The OIG also
evaluated the reasons the FBI waited until the next day to enter the residence, more than 18
hours after Ojeda was shot. In addition, the OIG examined the FBI’s initial decision to conduct
an emergency daylight assault on the Ojeda residence in light of other potential options for
apprehending Ojeda. We also assessed the FBI’s negotiations with Ojeda during the standoff,
as well as the FBI’s communications with Commonwealth of Puerto Rico officials regarding the
operation. Finally, the OIG examined allegations that the FBI had bypassed prior opportunities
to arrest Ojeda under circumstances less likely to result in violence.

In the course of this review, the OIG interviewed over 60 individuals, including the agents
involved in the attempted arrest of Ojeda, FBI Headquarters officials, officials from the U.S.
Attorney’s Office in Puerto Rico, and officials from the Department of Justice of the
Commonwealth of Puerto Rico and the Police of Puerto Rico. We also conducted lengthy
interviews of the Executive Director of the Institute of Forensic Sciences, and other scientists
involved in preparing the forensic reports. In addition, we reviewed thousands of pages of
documents generated by the FBI and the U.S. Attorney’s Office relating to the Ojeda matter,
and relevant forensic reports prepared by the Puerto Rico Institute of Forensic Sciences,
including the autopsy report, bullet and shell casing analyses, trajectory analysis, shooting
reconstruction, and blood pattern analysis. Finally, the OIG consulted with three outside
experts in tactical police operations to provide expert input and guidance on the FBI’s tactical
decisions in the Ojeda operation and application of the Department of Justice Deadly Force
Policy.

Based on this extensive review, the OIG concluded that the FBI agents’ use of force in the
Ojeda operation did not violate the Department of Justice Deadly Force Policy. This Policy
states that Department law enforcement officers may use deadly force when the officer “has a
reasonable belief that the subject of such force poses an imminent danger of death or serious
physical injury to the officer or to another person.”

With regard to the initial gunfire, the OIG found that Ojeda became aware the FBI was coming
to arrest him, made preparations to resist arrest, and opened fire on the agents as they
attempted to enter the residence before any agents had discharged their weapons. We
concluded that once Ojeda began firing he posed an imminent danger of death or serious injury
to the agents, and the agents were justified in returning fire at Ojeda.

According to media reports, Ojeda’s widow, Elma Beatríz Rosado Barbosa (Rosado), has alleged
that the FBI agents fired first. While Rosado declined to be interviewed by the OIG, we did not
find that the evidence supported her statements. However, the OIG determined that an FBI
agent detonated a non-lethal “flash bang” grenade outside the house as a diversionary tactic
when the FBI approached the house, before any gunfire began, and we believe Rosado may
have thought this explosion was gunfire initiated by the FBI.

In addition, the OIG assessed the three shots fired by an FBI agent into the kitchen window at
6:08 p.m., including the shot that struck and killed Ojeda. We concluded that these shots also
did not violate the DOJ Deadly Force Policy. The agent told the OIG that he fired after seeing
Ojeda through the window illuminated by a refrigerator light, crouched down with a pistol in his
left hand pointing out the window. When the FBI agents entered the house the next day, they
found a cocked and loaded pistol on the floor at Ojeda’s side, confirming that he was holding
the weapon when he was shot. The bullet trajectory evidence was also consistent with the
agent’s statement to the OIG. Moreover, Ojeda had already fired from the window and had
demonstrated an intent to shoot at the FBI agents. Taking all of these factors into
consideration, the OIG concluded that at the moment the agent saw Ojeda, the agent
reasonably believed that Ojeda presented an imminent threat to the agent or others, and
therefore the agent did not violate the Department’s Deadly Force policy by firing at Ojeda.

The OIG also evaluated the FBI’s decision to conduct an emergency daylight assault on the
residence to arrest Ojeda on September 23. The FBI had initially planned to arrest Ojeda
before dawn on September 24. The FBI moved up the operation when agents who had been
conducting surveillance of the residence reported their belief that they had been detected by
several persons near the residence. The FBI was concerned that these persons might be
sympathetic to Ojeda and alert him that the FBI was near the property. Consequently, FBI
supervisors changed their plans and ordered an immediate, emergency daylight assault on the
residence in an attempt to arrest Ojeda. An arrest team of 10 FBI agents was airlifted by
helicopters to a location near Ojeda’s residence and transported to the front yard of the
residence in an SUV. The agents then advanced up Ojeda’s front steps and onto the front
porch, exposing themselves to close-range fire from inside the house.

The OIG concluded that this daylight assault was extremely dangerous and not the best option
available to the FBI. Had Ojeda been more heavily armed, several FBI agents likely would have
been killed or seriously wounded. The daylight assault also was based on the unrealistic
assumption that the FBI would still retain the advantage of surprise, despite the FBI’s belief that
Ojeda was likely alerted to the FBI’s presence. Moreover, the FBI should have expected that
the noise from the helicopter airlift would further alert Ojeda to the FBI’s presence, and he also
would be able to see the agents coming up the front steps well before they could enter the
residence. The FBI had sufficient information to expect that Ojeda would be prepared to resist
an arrest attempt with violence, as he had done in the past, and that he would have significant
advantage over the arresting agents in terms of cover, elevation, and visibility. The OIG
concluded that a strategy of surrounding the residence and calling for Ojeda to surrender, with
the option of using chemical agents such as tear gas to force Ojeda outside, would have been a
safer and more effective strategy. The OIG also found that the FBI gave little or no
consideration to the option of withdrawing without taking immediate action to arrest Ojeda .

The OIG also examined the reasons that the FBI conducted the operation on El Grito de Lares,
a local holiday of particular significance to supporters of independence for Puerto Rico. The
OIG found no support for the allegation that the FBI conducted the arrest on that day,
September 23, for symbolic reasons, such as to intimidate supporters of Puerto Rican
independence. The FBI actually planned to arrest Ojeda on September 24, but conducted the
emergency assault a day early only because the agents conducting surveillance reported that
they had been detected.

The OIG also examined the reasons that the FBI did not enter the residence until more than 18
hours after Ojeda was shot. Shortly after Ojeda was shot at 6:08 p.m., the FBI in Puerto Rico
began making preparations to enter the house after dark. But before this operation could take
place, senior officials at FBI Headquarters assumed control over the entry decision and
determined that no entry would take place until the next day when a relief team of FBI agents
would arrive in Puerto Rico.

The OIG concluded that the FBI’s cautious approach toward entering the residence after Ojeda
was shot was motivated by considerations of agent safety, not by any desire to withhold
medical treatment from Ojeda or to let him die. The FBI’s concern during this period was that
Ojeda might not be incapacitated or that there was a second gunman inside the house, because
the arrest team believed that more than one weapon had been fired at them during the initial
gunfight. FBI Headquarters officials also were concerned that it would be difficult to detect
improvised explosive devices inside the house at night. We found that the senior FBI officials
who ordered the delayed entry believed that the concerns about agent safety outweighed
Ojeda’s need for medical attention.

While we did not conclude that the decision to delay entry until the next day was improper, we
also found that distance and multiple layers of reporting between the agents at the scene and
FBI Headquarters officials in Washington affected the information that was the basis of the
Headquarters’ decision. The agents at the scene believed that Ojeda had been seriously
wounded or killed, and over the course of the evening they became less concerned about the
possibility of other persons in the house. But their assessments did not reach officials at FBI
Headquarters, who made the decision not to enter the house until the next day based on the
belief that Ojeda still posed a threat and might have an accomplice.

However, the OIG also found that the decision to delay entry until the next day likely had no
impact on Ojeda’s death. The forensic pathologist from the Puerto Rico Institute of Forensic
Sciences who performed the autopsy estimated that Ojeda died from blood loss approximately
15 to 30 minutes after being shot, which would place the time of death between 6:23 p.m. and
6:38 p.m. According to this estimate, even if FBI agents at the scene had implemented their
plan to enter the residence after dark on September 23, Ojeda already would have died. If the
pathologist’s estimate was correct, the only chance to save Ojeda’s life would have been for the
agents to enter the residence within a short time after the three shots were fired and evacuate
Ojeda immediately. Given the uncertainty regarding Ojeda’s condition and the belief that more
than one weapon had been fired from inside the house during the gunfight, an immediate effort
to enter the house would have been a dangerous action and the OIG did not conclude that the
FBI acted improperly when it took a more cautious approach.

The OIG also reviewed the FBI’s negotiations with Ojeda during the standoff, before he was
shot. We found that the FBI agents who planned the operation should have accepted an offer
in advance of the operation from the FBI’s Crisis Negotiation Unit in Quantico, Virginia, to
provide highly trained negotiators in case of a standoff. Although the FBI utilized a negotiator
from its San Juan office during the standoff, the FBI did not comply with its own policies
regarding the integration of negotiators into operations planning or the use of multiple
negotiators.

The OIG also examined the FBI’s communications with the public and officials from the
Commonwealth of Puerto Rico regarding the Ojeda operation. We found that the FBI missed
opportunities to provide accurate information to the public and to Commonwealth officials
regarding the reasons for the delay in entering Ojeda’s residence, including the FBI’s concern
about a second gunman. We believe that the FBI should have provided more accurate
information, which might also have reduced the criticism regarding why the FBI did not enter
the residence immediately.

In addition, allegations were raised that the FBI had sufficient information regarding Ojeda’s
whereabouts and habits over a period of years to enable it to safely arrest Ojeda away from his
home. The OIG did not find evidence substantiating these allegations. Although the FBI had
previously received information suggesting Ojeda’s possible presence in Hormigueros, we found
that the FBI did not intentionally bypass opportunities to arrest Ojeda at a different location.

Finally, the OIG report made ten systemic recommendations relating to problems we found in
the conduct of the Ojeda arrest operation. Our recommendations, which are intended to
improve the planning and conduct of future FBI arrest operations, include such things as
assuring the reconsideration of all relevant tactical options when circumstances change and
ensuring that negotiators are integrated into tactical planning for operations in which a standoff
is a foreseeable contingency.
Inspector General Fine stated, “Although our report did not find that the FBI violated the Deadly
Force Policy or intentionally allowed Ojeda to die, we did find deficiencies in the FBI’s conduct
of the arrest operation. FBI decisions suffered from inadequate consideration of alternative
options and inadequate preparation for foreseeable scenarios. We believe our report and
recommendations can help the FBI avoid similar problems in future operations.”

The OIG’s full report and a Spanish language version of the report’s Executive Summary are
available on the OIG’s website at www.usdoj.gov/oig under the headings “What’s New” and
“Special Reports.”

We can be reached at (202) 514-3435 if you have any questions.

Paul Martin
Cynthia Schnedar
